                                Office of Inspector General
                               Corporation for National and
                                        Community Service




        Pre-Audit Survey of the
  North Dakota State Commission on
   National and Community Service

          OIG Report Number 04-21




                       Prepared by:

                Clifton Gunderson LLP
                4041 Powder Mill Road
                 Beltsville, MD 20705



This report was issued to Corporation management on September 28, 2004.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than March 28, 2005, and complete its corrective
actions by September 28, 2005. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                  Office of Inspector General
                        Corporation for National and Community Service
                                      Audit Report 04-2 1

         Pre-Audit Survey of Corporation for National and Community Service Grants
                                       Awarded to the
             North Dakota State Comn~issionon National and Community Service

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Clifton Gunderson LLP to perform a pre-audit survey of the North
Dakota State Commission on National and Community Service (Commission). The objectives
of the pre-audit survey were to evaluate: (1) the internal controls over grant management; (2) the
pre-award selection process; (3) the administration of grant funds; and (4) the evaluation and
oversight of subgrantees. The pre-audit survey covered the period October 1, 2002, through
March 3 1, 2004.

The Commission was awarded AmeriCorps Formula, AmeriCorps Competitive, Program
Development and Training, and Administrative grants totaling $426,244 for the period October
1, 2002, through March 31, 2003. During the survey program years, the auditors noted the
following:

       The Commission should improve its review and approval of the administrative match on
       Financial Status Reports.

       The Commission did not document its consideration of past performance or financial risk
       assessments during the subgrantee selection process.

       The Commission should improve its documentation of communications with its
       subgrantees and improve its review of subgrantee audits.

The auditors did not recommend that a full-scope audit be performed. They recommended that
the Corporation follow up with the Commission to address the findings related to grant
administration and subgrantee monitoring, and to determine that corrective actions have been
implemented.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Clifton Gunderson LLP did not comply, in all material respects, with generally accepted
government auditing standards.
                                  Pre-Audit Survey of the
             North Dakota State Commission on National and Community Service
                                     Table of Contents




RESULTS IN BRIEF ..................................................................................................................... 1

BACKGROUND ..............................................................................................................................
                                                                                                                                       2

OBJECTIVES. SCOPE. AND METHODOLOGY ............................................................ 3

FINDINGS AND RECOMMENDATIONS .........................................................................5

APPENDIX A . COMMISSION FUNDING FOR PROGRAM YEARS
2002 .2003 AND 2003 .2004 (through Mar . 3 1, 2004) ............................................... 9

APPENDIX B .DETAILED ENGAGEMENT OBJECTIVES AND
METHODOLOGY .......................................................................................................................
                                                                                                                          10

APPENDIX C .NORTH DAKOTA COMMISSION RESPONSE .................. 13

APPENDIX D .CORPORATION RESPONSE .................................................... 16
       C r ~ t ~ t P~ uebdl ~ cAccountants & Contultanta


May 26,2004


Office of Inspector General
Corporation for National and Community Service

At your request, Clifton Gunderson LLP (CG) performed a pre-audit survey of the North
Dakota State Commission on National and Community Service (Commission). We audited
funds received by the Commission from the Corporation for National and Community Service
(Corporation) for Program Years 2002-2003 and 2003-2004 (through March 3 1,2004).
Specifically, we performed the procedures requested by the Office of Inspector General (OIG)
that were listed in Attachment D of the Statement of Work. The primary purpose of this survey
was to provide a preliminary assessment of:

     the adequacy of the Commission's pre-award selection process;

     the procedures at the Commission for the fiscal administration of Corporation grants; and

     the effectiveness of the             omm mission's procedures for monitoring subgrantees.
We also report on the recommended scope of additional audit procedures to be performed at
the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering AmeriCorps
grants:

       The Commission administers an open, competitive process to select national service
       subgrantees. However, the Commission should improve its documentation of the risk
       assessment process.

       The Commission has developed adequate policies and procedures to administer the
       Corporation's grant funds. However, the Commission should improve its review and
       approval of the administrative match reported on the Financial Status Reports (FSRs).

       The Commission has established controls to evaluate and monitor subgrantees. However,
       the Commission should improve its process for documenting its communications with
       its subgrantees. In addition, we recommend that the Commission improve its review of
       subgrantee audits.
The section of this report entitled "Findings and Recommendations" describes the weaknesses
noted above in further detail, makes recommendations for corrective actions, and addresses
additional issues noted during the survey.

Based on our preliminary assessments and the nature of our findings, we recommend the
performance of limited audit procedures to address the findings related to grant
administration and subgrantee monitoring. Additionally, we recommend that the Corporation
follow up with the Commission to determine that appropriate corrective actions are
implemented to address the conditions reported herein, and that the Corporation consider
these conditions in its oversight and monitoring of the Commission.


Background

Corporationfor National and Community Service

The National and Community Service Trust Act of 1993, Pub. L. No. 103-82, which
amended the National and Community Service Act of 1990, established the Corporation for
National and Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State commissions, nonprofit entities, tribes and territories to assist in the
creation of full-time and part-time national and community service programs. Through these
grantees, AmeriCorps members perform service to meet educational, human, environmental
and public safety needs throughout the Nation, especially addressing those needs related to
poverty. In return for this service, eligible members may receive a living allowance and
post-service educational benefits.

Currently, the Corporation awards approximately three-fourths of its AmeriCorps*State and
National funds to State commissions. State commissions are required to include 15 to 25
voting members. Each commission has a responsibility to develop and communicate a vision
and ethic of service throughout its State.

The commissions provide AmeriCorps funding to approved applicants for service programs
within their States and are responsible for monitoring subgrantees' compliance with grant
requirements. Commissions are also responsible for providing training and technical
assistance to AmeriCorps programs that receive grants directly from the Corporation, and to
the broader network of service programs in the State. Commissions are prohibited from
directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State commissions. The standards require, in part, that the commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities. The commissions must
also provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.
North Dakota Commission on National and Community Service

The Commission is located in Bismarck, North Dakota. Since its inception in 2002, the
Commission has received AmeriCorps grant funds from the Corporation. The Commission is an
independent division of the North Dakota Workforce Development Council (Council), which is
part of the North Dakota Department of Commerce (NDDoC). The NDDoC serves as the fiscal
agent for the Commission. The Commission and the Council share professional and support
staff on an equal basis. The Director and Administrative Officer of the Workforce Development
Division of NDDoC are full-time employees and devote 50 percent of their time to the Council
and 50 percent to the Commission. In addition, the Commission has a fill-time Program Officer.

Working together, the Council and the Commission leverage resources, coordinate efforts, and
support comprehensive cross-stream planning and program implementation. However, the
Council and the Commission are independent of one another. The Commission staff is also
supplemented with support from NDDoC's Office Manager and two AccountIBudget Specialists,
as needed.

The State operates on a biennial fiscal period. Therefore, the State is subject to an OMB
Circular A-1 33 audit every two years. The last A-1 33 audit performed was for the period
ended June 30,2002, before the Commission was established. There was only one finding
related to NDDoC. The finding related to the presentation of the Schedule of Expenditures of
Federal Awards. Adjustments were made to the schedule and there were no questioned costs.
There were no internal control findings related to NDDoC in the June 30,2002, A-133 report.

The Commission provided the following information for Program Years 2002-2003 and 2003-
2004 (through March 3 1,2004):

                             Total                                Number of
                          Corporation           Number of     Subgrantees Subject
    Program Year           Funding              Subgrantees    to A- 133 ~ u d i t s '
     2002-2003             $282,666                 o2                 0
     2003-2004             $168,578                 2                  1

Appendix A contains more detailed information on funding received from the Corporation
during Program Years 2002-2003 and 2003-2004.


Obiectives, Scope, and Methodology

We were engaged by the Office of Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey is to provide a preliminary assessment
of
               ~p--   -   - - - - - - -- -- -


1
 This determination is based solely on the dollar value of Federal awards passed through the Commission for each
program year. Remaining subgrantees could be subject to an OMB Circular A-133 audit if they receive additional
Federal grant funds from sources other than the Corporation.
 In the initial year of funding, the two subgrantees received funding directly from the Corporation.
        the adequacy of the Commission's pre-award selection process;
        the procedures used by the Commission for the fiscal administration of
        Corporation grants; and
        the effectiveness of the Commission's procedures for monitoring subgrantees.

We also report on the recommended scope of additional audit procedures to be performed at the
Commission.

Our survey included the following procedures:

        reviewing applicable laws, regulations, grant provisions, the Corporation's State
       Administrative Standards Tool, and other information to gain an understanding of legal
       and programmatic requirements;

         reviewing OMB Circular A-1 33 reports and current program year grant agreements
        for the Commission;

         obtaining information from Commission management to complete flowcharts
        documenting the hierarchy of AmeriCorps grant funding for Program Years 2002-2003
        and 2003-2004 (through March 3 1,2004); and

         performing procedures to achieve the objectives, detailed in Appendix B, to assess the
        Commission's internal controls, selection of subgrantees, administration of grant funds,
        and monitoring of subgrantees, including internal controls over reporting service hours
        and performance accomplishments.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission by utilizing inquiries, observations, and examinations of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on May 26,2004.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts, and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported.

We provided a draft of this report to the Commission and the Corporation. Responses to our
findings and recommendations by the Commission and the Corporation are included as
Appendices C and D, respectively, in this report.
FINDINGS AND RECOMMENDATIONS

Selecting Subgrantees

According to 45 CFR $ 2550.80(b)(l), each State must "[aldminister a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through a newspaper legal advertisement, which
is supplemented by direct mail and e-mail to nonprofit, educational, faith-based, and other
organizations. The Commission also holds community meetings across the State to raise
awareness. In addition, selection officials sign conflict-of-interest statements annually,
receive an instruction package, and use a standard form to evaluate each applicant.
However, we identified the following area for improvement within the subgrantee selection
process:

Risk Assessment
During review of the subgrantee selection process, there was minimal documentation
related to risk assessment. According to 45 CFR 9 2550.80(b)(l), each State must
"[aldminister a competitive process to select national service programs to be included in any
application to the Corporation for funding." In discussions with Commission staff, they stated
that they performed a risk assessment by holding meetings, conference calls, discussions, etc.
However, there is minimal documentation of risk assessment in the files. The Commission
indicated that the Corporation found the same issue in the Administrative Standards review
completed in April 2004 and that the Commission was working on improving its documentation.

Recommendation
We recommend the Commission continue to improve its documentation of risk assessment
procedures performed on potential subgrantees.


Administering Grant Funds

As part of the grant administration process, "[g] rantees are responsible for managing the
day-to-day operations of grant and subgrant supported activities. Grantees must monitor
grant and subgrant supported activities to assure compliance with applicable Federal
requirements and that performance goals are being achieved. Grantee monitoring must cover
each program, function or activity." 45 CFR 5 2541.400(a).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly
administered. Procedures are in place to withhold funding payments if subgrantees do not
submit Financial Status Reports in a timely manner, to manage cash drawdowns and
disbursements to subgrantees, and to ascertain whether subgrantees have met their matching
requirements. The omm mission's personnel have adequate skills and experience managing
and administering Corporation grant funds. However, we identified the following areas for
improvement within the grant administration process:
Matching or Cost Sharing
Per 45 CFR 5 2541.2OO(b)(l), "[a]ccurate, current, and complete disclosure of the financial
results of financially assisted activities must be made in accordance with the financial reporting
requirements of the grant or subgrant." The time charged to the grant for the Administrative
Officer was not coded properly during February and March of 2004, which resulted in a
misstatement of approximately $3,200 for the administrative match. The Commission has
corrected this and stated that it would file a correct Financial Status Report (FSR) on Form 269
when it is due on June 30,2004. Since the error occurred after the filing of the December 3 1,
2003, FSR, it did not impact any amounts reported to the Corporation. In addition, the error was
discovered during the Director's regular review of the Commission match.

Recommendation
Since the error was not discovered for two months, we recommend that the Director conduct a
monthly review of the Commission match.

Matching or Cost Sharinz
As previously discussed, the NDDoC serves as the fiscal agent for the Commission. NDDoC's
Office Manager and two AccountIBudget Specialists assist the Commission, as needed.
However, the Commission has not tracked this effort until recently and it has not been included
in the match. As specified in 45 CFR $ 2541.240(~)(2),"[w]hen an employer other than a
grantee, subgrantee, or cost-type contractor furnishes free of charge the services of an employee
in the employee's normal line of work, the services will be valued at the employee's regular rate
of pay exclusive of the employee's fringe benefits and overhead costs."

Recommendation
We recommend the Commission quantify the level of effort provided by NDDoC personnel and
report it as match.

Financial Reporting
During follow up on Matching or Cost Sharing, we discovered that the match was incorrectly
reported on the June 30,2003, and December 3 1,2003, FSRs. This error was discussed with the
Account/Budget Specialists at the NDDoC and revised FSRs were prepared and submitted. Per
45 CFR 5 2541.200(b)(l), "[alccurate, current, and complete disclosure of the financial results of
financially assisted activities must be made in accordance with the financial reporting
requirements of the grant or subgrant." As previously discussed, the NDDoC serves as the fiscal
agent for the Commission, and the FSRs filed by NDDoC personnel are based on a computer-
generated report.

Recommendation
We recommend that Commission personnel compare the information on the FSR to the computer
generated report before the NDDoC files the FSR with the Corporation. The Commission is
ultimately responsible for FSR reporting.

Financial Re~orting
During review of subgrantee files, we discovered that the first quarterly FSR filed by one
of the subgrantees was not filed until the end of the second quarter. Per 45 CFR 5
254 1.410(b)(4), "[wlhen reports are required on an quarterly or semiannual basis, they will be
due 30 days after the reporting period." During the first quarter that the subgrantees began
receiving funding from the Commission (October 1 to December 3 1,2003)' they encountered
problems accessing the Corporation's Web Based Reporting System (WBRS), and one of the
subgrantees was unable to submit its FSR on time. The problem was corrected and an FSR for
the two quarters ended March 3 1,2004, was submitted on April 26,2004. The subgrantees are
now reporting on a timely basis. This issue has been remedied and no further action is required.


Evaluating and Monitoring Subgrantees

The Commission is responsible for monitoring subgrant-supported activities to assure
compliance with applicable Federal requirements and achievement of performance goals. The
Commission has established controls to evaluate and monitor subgrantees, which include
reviewing program and financial reports and scheduling site visits for each subgrantee during the
grant period. Commission personnel use a standard site visit report form to document the results
of each visit. The Commission notifies the subgrantees of the results of these site visits,
including findings on strengths, weaknesses, concerns, recommendations, and any necessary
follow-up requirements. In addition, the Commission currently has a Request for Proposal
(RFP) to hire a firm to assist with the fiscal monitoring of subgrantees, the development of a
fiscal monitoring guide and work papers, and additional training for staff. However, we
identified the following areas for improvement related to the evaluation and monitoring of
subgrantees:

Communications with Subgrantees
During the review of the subgrantee files, it was noted that the Commission has conducted site
visits of the subgrantees and is in continuous contact with them. However, since the
Commission is so new and there are only two subgrantees, much of the communication has been
informal. As part of the grant administration process, "[rlecipients are responsible for managing
and monitoring each project, program, subaward, function or activity supported by the award."
45 CFR fj 2543.5 1(a).

Recommendation
We recommend the Commission maintain more complete documentation of its communications
with subgrantees. We suggest including notes of phone conversations and e-mail printouts in
subgrantee files.

Subgrantee Financial Audits
In accordance with 45 CFR 2543.26(a), "[rlecipients and subrecipients that are institutions of
higher education or other non-profit organizations . . . shall be subject to the audit requirements
contained in the Single Audit Act Amendments of 1996 (31 U.S.C. 7501-7507) and revised
OMB Circular A-133, 'Audits of States, Local Governments, and Non-Profit Organizations'."
One of the Commission's subgrantees was subject to an A-133 audit and had a finding related to
the potential violation of certain restrictive provisions of its grants. This conduct occurred and
this audit report was released during the time period that the Corporation was directly funding
the subgrantee. The Commission's other subgrantee is not subject to an A-133 audit (per verbal
information from the subgrantee) and has never undergone a financial audit.

Recommendation
We recommend that the Commission review the next audit report of the subgrantee that was
subject to an A-133 audit to see if this issue has been remedied. If not remedied, the
Commission should consider this issue in its decision to approve funding for 2004-2005. We
also recommend that the Commission require the other subgrantee to have a limited scope audit
to assist the Commission in monitoring the subgrantee in accordance with OMB Circular A-133.


Additional Observations

We also noted the poor financial condition of both of the Commission's subgrantees. Both
entities have current liabilities that far exceed current assets. This indicates that the subgrantees
may have insufficient funds to pay expenses on a continual basis and may not be able to continue
to operate during the grant award period. We recommend that State personnel with a financial
background review the subgrantees' financial reports to assess their financial condition. Such a
review will help the Commission determine if there are any disclosures or findings that should be
considered in deciding to approve funding.


This report is intended solely for the information and use of the Office of Inspector General, the
management of the Corporation for National and Community Service, the management of the
North Dakota State Commission on National and Community Service, and the United States
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.




Calverton, Maryland
                                                                    APPENDIX A

                              COMMISSION FUNDING



                 Corporation for National and Community Service
    Funding to the North Dakota State Commission on National and Community
                                      Service
                 For the Period October 1, 2002, to March 3 1,2004



                                                                               I

  AmeriCorps           AmeriCorps       Learn and        PDAT         Administrative Funds
   Formula             Competitive                       Funds             $195,729
    Funds                Funds           Funds
   $139,515                                              $91,000              Match
                                                                             $33,483
    Match                Match           Match
                                                                       Disability Placement
                                                                              Funds
                                                                             $25,000




               Total Corporation Funds Retained by the Commission: $3 1 1,729

                        Total Commission Matching Funds: $33,483

                 Total Corporation Funds Awarded to Subgrantees: $1393 15




 AmeriCorps
Formula Funds
  $139,515

   Match
    $0

  Total # of
   SUBS
      2

    Sites
     13
                                                                       APPENDIX B


      DETAILED ENGAGMENT OBJECTIVES AND METHODOLOGY

Internal Controls
Our objective was to make a preliminary assessment of the adequacy of the
Commission's financial systems and the documentation maintained by the Commission.
The purpose of this objective was to provide reasonable assurance that transactions are
properly recorded and accounted for to:

       permit the preparation of reliable financial statements and Federal reports;
       maintain accountability over assets; and
       ensure compliance with Federal laws, regulations, and other compliance
       requirements.


In order to achieve the above objective, we identified compliance requirements with a
direct and material effect on the Commission's AmeriCorps grant program as follows:
activities allowed or unallowed; allowable costs; eligibility; matching; period of
availability of Corporation funds; suspension and debarment; subgrantee monitoring;
and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls for these requirements.

Selecting Subgrantees
Our objectives were to make a preliminary assessment of:

       the adequacy of the systems and controls used by the Commission to select national
       service subgrantees to be included in an application to the Corporation;
       whether the Commission evaluated the adequacy of potential subgrantee financial
       systems and controls in place to administer a Federal grant program prior to
       making the award to subgrantees; and
       whether Commission involvement in the application process involved any actual
       or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management
personnel and documented procedures performed by the Commission during the pre-
award financial and programmatic risk assessment of potential subgrantees. We also
reviewed documentation to determine if selection officials signed conflict-of-interest
forms for each subgrantee applicant, and if the Commission maintained these forms.
Administering Grant Funds
Our objectives were to:

       make a preliminary assessment of the adequacy of the systems and controls used
       by the Commission to oversee and monitor the performance and progress of
       funded subgrantees;
       make a preliminary assessment as to whether the Commission's organizational
       structure, staffing level, and skill mix are conducive to effective grant administration;
       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;
       make a preliminary assessment of the adequacy of financial systems and
       documentation maintained by the Commission to support oversight of subgrantees
       and required reporting to the Corporation (including Financial Status Reports,
       progress reports, enrollment and exit forms, and change-of-status forms); and
       determine whether the Commission has procedures in place to verify the accuracy
       and timeliness of submitted reports.

In order to achieve the above objectives, we reviewed accounting records, Financial
Status Reports, and progress reports submitted by subgrantees, as well as Financial Status
Reports submitted by the Commission to the Corporation, to give a preliminary
assessment of their accuracy.

Evaluating and Monitoring Subgrantees
Our objectives were to:

       make a preliminary assessment of the adequacy of the systems and controls by the
       Commission, in conjunction with the Corporation, to implement a comprehensive,
       non-duplicative evaluation and monitoring process for subgrantees;
       determine whether the Commission has an established subgrantee site visit
       program in place and make a preliminary assessment of the effectiveness of its
       design in achieving monitoring objectives;
       make a preliminary assessment of the adequacy of the Commission's procedures
       used to assess subgrantee compliance with Corporation regulations (e.g.,
       procedures governing eligibility of members, service-hour reporting, prohibited
       activities, payment of living allowances to members, and allowability of costs
       incurred and claimed under the grants by subgrantees, including reported match);
       make a preliminary assessment of the adequacy of the Commission's procedures for
       obtaining, reviewing, and following up on findings included in subgrantee OMB
       Circular A- 133 audit reports, where applicable;
       determine whether program goals are established, and whether results are reported
       and compared to these goals; and
       make a preliminary assessment of the adequacy of the procedures in place to
       evaluate whether subgrantees are achieving their intended purpose.
In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we
judgmentally selected subgrantees and obtained Commission documentation for site
visits. We reviewed the documentation to preliminarily assess the adequacy of the
procedures performed by the Commission to assess financial and programmatic
compliance, and related controls at the sites. We also determined whether the
Commission received and reviewed OMB Circular A-1 33 audit reports from subgrantees.
                                                             APPENDIX C


September 14,2005




J. Russell George
Inspector General
Attention: Ms. Carol Bates, Audit Manager
Corporation for National and Community Service
Office of Inspector General
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Mr. George:

Thank you for the opportunity to respond to the draft report on the results of
North Dakota's pre-audit survey of the North Dakota Commission on National
and Community Service.

We appreciate the pre-audit survey being conducted early in our start-up
process. The State Commission is interested in administering the very best
ArneriCorps programs possible and is fully committed to providing effective
control and accountability for all grant and sub grant funding, real and
personal property and other assets.

Findings and Recommendations:

    1. Risk Assessment

       Recommendation: We recommend the Commission continue to
       improve its documentation of risk assessment procedures performed
       on potential sub grantees.

       Response: The North Dakota State Commission agrees with this
       recommendation. We feel that the process is in place. What is
       lacking, or was lacking, was formal documentation of the process and
       findings of the assessment. We are now having our sub grantees
       complete a Risk Assessment Survey and having our Fiscal Officer
       provide input and comment on the Risk Assessment.

    2. Matching Cost Sharing:

       Recommendation: We recommend that the Director conduct monthly
       review of Commission Match.
   Response: We agree with this recommendation. Our State reporting
   system has improved and we fully expect to have timely financial
   reports of Commission expenditures and match to support the monthly
   review.

3. Match or Cost Sharing:

   Recommendation: We recommend the Commission quantify the level
   of effort provided by the NDDoC personnel and report it as match.

   Response: We agree with this recommendation, but recognize that this
   is a double edged sword. Personnel from NDDoC provide the fiscal
   support to the Commission. I requiring them to track their time and
   effort, we are placing additional administrative burden on them and
   increasing their cost associated with this support. In addition, being a
   State Agency and having to have our budgets approved by the North
   Dakota State Legislature we open the door to questioning why the
   State of North Dakota should be providing this additional match and
   may end up having an indirect cost allocation applied to our
   Commission funding.

4. Financial Reporting:

   Recommendation: We recommend the Commission personnel
   compare information on the FSR to the computer generated report
   before the NDDoC files the FSR with the Corporation.

   Response: We agree with this recommendation. The error in question
   was the result of a decision make by the NDDoC Account Specialist to
   report match only to the level required. The FSR was corrected and
   the individual who made this decision is no longer in the employ of
   NDDoC. We do not expect that this would occur in the future and will
   review and compare information on the FSR to the computer generated
   reports.

5. Communications with Sub grantees:

   Recommendation: We recommend the Commission maintain more
   complete documentation of its communications with sub grantees. We
   suggest including notes of phone conversations and e-mail printouts in
   sub grantees files.

   Response: We agree with this recommendation. We have
   implemented a written procedure and policy requiring the use of
   formal communications and posting of communications to the sub
   grantees file. We recognize that in the past the communications was
   informal and posting to the file of e-mail and phone contacts with sub
   grantees did not occur.
   6. Sub grantee Financial Audits:

       Recommendation: We recommend that the Commission review the
       audit report of the sub grantee that was subject to an A-133 audit when
       it becomes available to see if the issues have been remedied. If not
       remedied, the Commission should consider this issue in its decision to
       approve funding for 2004 - 2005. We also recommend that the
       Commission require the other sub grantees to have a limited scope
       audit to assist the Commission in monitoring the sub grantee in
       accordance with Circular A-1 33,40O(d)(3).

       Response: We agree with this recommendation and will review the A-
       133 Audit when it is available. In addition we will put in our contract
       the requirement for a limited scope audit for other sub grantees.

   7. Additional Observations:

       Recommendation: We also noted the poor financial condition of both
       the Commission's sub grantees.. ... ... We recommend that State
       personnel with a financial background review sub grantee financial
       reports to access the financial condition of the sub grantees.

       Response: We agree with the recommendation. We will review the
       possibility of expanding the Request for Proposal Process to include a
       current financial statement of the organization. We will also need to
       determine how we access the expertise to interpret the financial
       statement if not available within NDDoC.

Again, thank you for the opportunity to respond.

Sincerely,


James J. Hirsch
Director
                                SxTrdkAL
                                       &
                                COMMUNITY
                                SERVICEr-Fs.-



To:           J. Russeil George, Inspector General


From:        Gregory     n ,Acting Director of Grants Management

Cc:           Andrew Kleine, Acting Chief Financial Officer
              Rosie Mauk, Director of AmeriCorps


Date:         September 15,2004


Subject:      Response to OIG Draft Audit Report 04-2 1 w d Management Decision,
              Pre-Audit Survey of the North Dakota State Commission on National ahd
              Community Service


We have reviewed the draft Pre-Audit Survey of the North Dakota State Commission and
this response also serves as the Corporation's Management Decision. We agree with t
auditors' recommendations and the Commission has indicated they are implementing
policies and procedures recommended in the report. Within the next four months, th
Corporation will follow up with the Commission to confirm that corrective action is
complete.




                       1201 Xew York Avenue, NW
                             202-606-5000   t
                                                   * Washington, DC 20525
                                                www.nationalservice.org           us\=
                                                                                  ncp l c . d e ~CI~U Corps
                                                                                  Freedom           10 <trrtcc
                       Senior Corps * AmeriCorps * Learn and Serve America
